NEWS
 United States Department of Justice
 U.S. Attorney, District of New Jersey
 970 Broad Street, Seventh Floor
 Newark, New Jersey 07102
Ralph J. Marra, Jr., Acting U.S. Attorney

More Information? Call the Assistant U.S. Attorney or other contact listed below to see if more
information is available.

News on the Internet: News Releases and related documents are posted at our website.
Go to: http://www.usdoj.gov/usao/nj/press/index.html


Contact:                                                         plat0204.rel
Michael Drewniak, Public Affairs Officer            FOR IMMEDIATE RELEASE
973-645-2888                                                    Feb. 4, 2009




        Founders and Officials of Charter Jet Company Indicted,
          Charged in Connection with 2005 Teterboro Crash



                                           (More)




Public Affairs Office                                                          973-645-2888
Michael Drewniak, PAO



                http://www.usdoj.gov/usao/nj/press/index.html
NEWARK – Five company officials and a pilot associated with a luxury charter jet company that
operated a flight from Teterboro Airport which crashed on takeoff in 2005 were named in a 23-
count Indictment charging a series of crimes, including endangering the safety of aircraft, Acting
U.S. Attorney Ralph J. Marra, Jr. announced today.

The Indictment, which was returned on Jan. 23 and unsealed with arrests this morning, charges
the following individuals associated with now-defunct Platinum Jet Management, LLC, of Ft.
Lauderdale, Fla.: Michael Brassington, 35, the President, CEO, chief pilot and co-founder of
Platinum Jet; his brother, Paul Brassington, 29, a Vice President and co-founder of Platinum Jet;
Andre Budhan, 42, a managing member and co-founder of Platinum Jet; Joseph Singh, 37, the
Director of Charters for the company; Brien McKenzie, 42, Platinum Jet’s Director of
Maintenance; and Francis Vieira, 59, a Platinum Jet pilot.

Michael and Paul Brassington, Budhan and McKenzie were arrested this morning in Ft.
Lauderdale by Special Agents of the Department of Transportation Office of Inspector General
and the FBI. They are expected to appear before a federal Magistrate Judge today in Ft.
Lauderdale. Arrest warrants have been issued for Vieira and Singh and they are being sought.

The Indictment alleges a conspiracy to commit continuous willful violations of regulatory
requirements for the operation of commercial charter aircraft. The Indictment also accuses the
defendants of routinely undertaking and concealing dangerous fueling and weight distribution
practices which existed on the Platinum-operated jet that failed to lift off at Teterboro on Feb. 2,
2005. The jet left the end of the runway, crossed Route 46, hitting cars along the way, and
slammed through the side of a clothing warehouse.

The Teterboro flight that crashed on Feb. 2, 2005, was over-fueled in a manner that caused the
plane’s center of gravity to exceed its forward weight limit for takeoff, contributing to the crash,
according to the Indictment. The fueling practice was commonly used, according to the
Indictment, to increase profits for Platinum Jet.

“The fuel loading was the primary contributing factor in the crash,” Marra said. “It is astounding
– and criminal – that owners and operators of jet aircraft would repeatedly engage in such a
dangerous game with passengers and airplanes loaded to the brim with jet fuel. What this
indictment alleges is an anything-goes attitude by the defendants to get their planes in the air and
maximize profits without regard to passenger safety or compliance with basic regulations.”

“This case demonstrates that ensuring the safety of the nation’s air transportation system remains
a high priority for the Office of Inspector General and the Department of Transportation,” said
Ned Schwartz, DOT OIG Special Agent in Charge in New York. “Working with the United
States Attorney’s Office and our other law enforcement colleagues, we will continue our efforts
to uncover fraudulent activities that could compromise the integrity of DOT’s safety programs.”

The Indictment charges Michael Brassington with endangering the safety of aircraft and alleges
that all of the defendants joined a conspiracy to defraud charter flight customers, jet charter

                                                                                                   2
brokers and the Federal Aviation Administration (FAA) through interstate wire communications,
and to defraud the United States by impeding and obstructing the FAA’s regulation of
commercial aircraft in the United States.

According to the Indictment, from November 2002 until November 2003, the conspirators
operated Platinum Jet as an on-demand commercial jet charter company without having a “Part
135 certificate,” which is required by federal aviation regulations for charter operations and is
granted only after a rigorous application process, which required operators, among other things,
to develop comprehensive operating, training and maintenance manuals that would govern their
charter operations. During this period, the conspirators lied in contractual documents faxed from
state to state to charter brokers about Platinum Jet’s illegal regulatory and safety status. The
Indictment claims that the defendants operated more than 85 commercial flights during this
period in violation of federal safety regulations for more than $1 million in compensation.

The Indictment further alleges that, in November 2003, the conspirators started sharing a Part
135 certificate, or “piggybacking,” with a Part 135 certificate holder based in Alabama, and that
after they did so, they continued to violate FAA rules by dispatching unqualified pilots and pilots
without the FAA-required amount of rest to fly chartered flights. To conceal this illegality, the
Indictment alleges, Michael Brassington, Vieira and other Platinum Jet pilots signed FAA-
mandated flight logs for more than 30 charter-brokered flights falsely indicating that those
charters were private, non-profit flights, which are subject to less onerous regulation than
commercial flights. This alleged conduct lasted from November 2003 until shortly after the
crash at Teterboro Airport in February 2005. During this period, conspirators Michael and Paul
Brassington, Budhan and Singh continued to claim in interstate contracts with the brokers that
Platinum Jet was in compliance with federal safety regulations.

                                  The “Tankering” Scheme

As part of the conspiracy, the Indictment alleges a dangerous and fraudulent “tankering” scheme,
where the defendants – in order to cut costs and take advantage of less expensive fuel contracts
at locations including Teterboro – would over-fuel aircraft to an extent where those aircrafts’
centers-of-gravity were too far forward for safe takeoff. The defendants would then falsify
FAA-required weight-and-balance graphs to conceal the tankering and dangerous weight
configuration. According to the Indictment, Michael Brassington and Vieira doctored numerous
weight-and-balance graphs to conceal excess front-loaded weight before takeoff and instructed
other pilots to do the same. Also, McKenzie is alleged to have lied to a Platinum Jet pilot about
the weight of one of the aircraft in order to keep the scheme going. According to the Indictment,
Platinum Jet flew more than 25 commercial charter flights on two separate aircraft with centers-
of-gravity that exceeded the aircrafts’ forward limits, and lied about it in FAA-required
documents.

It was this dangerous tankering, according to the Indictment, that was the primary contributing
factor in the Teterboro crash. The Indictment alleges that, in November 2004, Michael
Brassington told a first officer with Platinum Jet that one of the aircraft, Jet N370V, weighed


                                                                                                  3
considerably less than the weight reflected on FAA-required weight-and-balance graphs located
on that aircraft. In reliance on this representation from Michael Brassington, the first officer
over-fueled Jet N370V on the day of the crash and caused its center-of-gravity to exceed its
forward limit for takeoff and endangered the aircraft.

The lead defendant, Michael Brassington, is charged with one count of conspiracy to commit
wire fraud and to defraud the United States by impeding the FAA; four counts of making false
statements in FAA-required flight logs; one count of lying in the National Transportation Safety
Board (NTSB) accident report relating to the Teterboro crash, wherein he claimed that the flight
was a private, non-profit flight, in order to conceal the fact that Platinum Jet had dispatched an
unqualified captain and failed to complete an FAA-required flight log and weight-and-balance
graph; and one count of endangering the safety of an aircraft, in relation to his false
communications to the first officer that fueled Jet N370V immediately preceding its failed
takeoff.

Paul Brassington is charged with one count of conspiracy to commit wire fraud and to defraud
the United States by impeding the FAA, as are Budhan and McKenzie. Singh is charged with
one count of conspiracy to commit wire fraud and to defraud the United States by impeding the
FAA, and four counts of making false statements in FAA-required flight logs.

Vieira is charged with one count of conspiracy to commit wire fraud and to defraud the United
States by impeding the FAA; two counts of making false statements in FAA-required flight logs;
12 counts of making false statements in FAA-required weight-and-balance graphs; one count of
making false statements to the NTSB during an interview following the Teterboro crash, wherein
he claimed that he believed Jet N370V weighed 1,000 pounds less than it really did; and one
count of making false statements to the Department of Transportation Office of Inspector
General during that agency’s criminal investigation.

The single conspiracy count and 21 false statement counts each carries a maximum statutory
penalty of five years in prison and a maximum fine of $250,000. The endangering the safety of
aircraft count against Michael Brassington carries a statutory maximum penalty of 20 years and a
fine of $250,000.

Marra credited Special Agents of the Department of Transportation Office of the Inspector
General, under the direction of Inspector General Calvin L. Scovel III, and Special Agent in
Charge Ned E. Schwartz in New York, for the investigation leading to the Indictment. Marra
also acknowledged the assistance of the Flight Standards Division of the FAA in the
investigation.

The government is represented by Assistant U.S. Attorney Scott B. McBride of the U.S.
Attorney's Government Fraud Unit.

                                              -end-



                                                                                                   4
5
